                            Office of Inspector General
                 Export-Import Bank of the United States




        FISCAL YEAR 2009

INFORMATION SECURITY PROGRAM AND 

     PRACTICES AND TECHNICAL 

     CONFIGURATION REVIEWS





                                              January 25, 2010
                                                OIG-AR-10-02




   811 Vermont Avenue, N.W. Washington, D.C. 20571
Office of Inspector General
                                            Export-Import Bank
                                            of the United States


January 25, 2010



MEMORANDUM 


TO:                  Fernanda Young
                     Chief Information Officer

FROM:                Jean Smith
                     Assistant Inspector General for Audit



SUBJECT:	            Fiscal Year 2009 Information Security Program and Practices and Technical
                     Configuration Reviews (OIG-AR-10-02, January 25, 2010)

This memorandum transmits Cotton & Company LLP’s report on the results of the subject audit.
Under a contract monitored by this office, we engaged the independent firm of Cotton &
Company LLP to evaluate security controls over information, as well as to determine if Ex-Im
Bank met Federal Information Security Management Act requirements. The contract required
the audit to be performed in accordance with Government Auditing Standards, 2007 Revision, as
amended.

The Fiscal Year 2009 Information Security Program and Practices and Technical Configuration
Reviews audit report addresses issues associated with the security of information at Ex-Im Bank.
For that reason, we are not making the report available on-line, but it may be available under the
Freedom of Information Act.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If you
have any questions, please call me at (202) 565-3944.



cc: 	    Michael Cushing, Senior Vice President – Resource Management
         Alice Albright, Chief Operating Officer
         John Lowry, Director, Information Technology Security and System Assurance
         Bill Smith, Director, Information Technology Infrastructure, Operational Security
                 and Operations

         Joseph Sorbera, Controller and Audit Liaison 

         Audit Committee 



                   811 Vermont Avenue, N.W. Washington, D.C. 20571
